1a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOEY LONG,
Plaintiff-Appellee,
v.

No. 18-17061
D.C. No. 3:16-cv03129-JSC

AUTHENTIC ATHLETIX, LLC; MEMORANDUM*
PETER J. SCHAFFER,
(Filed Apr. 20, 2020)
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of California
Jacqueline Scott Corley, Magistrate Judge, Presiding
Submitted April 16, 2020**
Pasadena, California
Before: THOMAS, Chief Judge, and FERNANDEZ and
W. FLETCHER, Circuit Judges.
This breach of contract action arises out of an alleged agreement between Joey Long and sports agency
Authentic Athletix, LLC and Peter Schaffer, its
founder and president (together, “Defendants”). As the
parties are familiar with the record, we need not recite
it in any detail. We affirm the district court’s orders.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
1. First, the district court did not err in denying
Defendants’ motion to dismiss for lack of personal jurisdiction. Long was required only to “make a prima
facie showing of jurisdictional facts” to withstand the
motion. Schwarzenegger v. Fred Martin Motor Co., 374
F.3d 797, 800 (9th Cir. 2004) (quoting Sher v. Johnson,
911 F.2d 1357, 1361 (9th Cir. 1990)); see also Peterson
v. Highland Music, Inc., 140 F.3d 1313, 1319 (9th Cir.
1998). On the facts found by the district court, Long
made a prima facie showing that Defendants purposefully availed themselves “of the privilege of conducting
activities in California” and that his claims arose
out of Defendants’ California-related activities.
Schwarzenegger, 374 F.3d at 802. We also affirm that
exercising jurisdiction was “reasonable” for the reasons stated by the district court.
2. The district court did not err in denying Defendants’ renewed motion for judgment as a matter of
law under Fed. R. Civ. P. 50(b). “[A] proper post-verdict
Rule 50(b) motion is limited to the grounds asserted in
the pre-deliberation Rule 50(a) motion.” EEOC v. Go
Daddy Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009).
Viewing the evidence in the light most favorable to the
nonmoving party, we review “whether the evidence
permits only one reasonable conclusion, and that conclusion is contrary to the jury’s verdict.” Josephs v. Pac.
Bell, 443 F.3d 1050, 1062 (9th Cir. 2006). Grounds not
raised in a Rule 50(a) motion are reviewed for plain
error, and reversal is warranted only if “such plain error would result in a manifest miscarriage of justice.”
Go Daddy Software, Inc., 581 F.3d at 961 (quoting

3a
Janes v. Wal–Mart Stores, Inc., 279 F.3d 883, 888 (9th
Cir. 2002)).
3. The statute of limitations does not bar Long’s
claims. The jury found the alleged agreement was
“founded upon a written instrument.” A reasonable
trier-of-fact could make such a finding based on evidence of the parties’ email exchange and Defendants’
conduct following these exchanges. See Amen v. Merced
Cty. Title Co., 58 Cal. 2d 528, 532 (1962). An action on
a contract “founded upon an instrument in writing”
must be commenced within four years after accrual.
Cal. Code Civ. P. § 337(a). Long filed his action within
three years of the action’s accrual date. For the same
reasons, there was no plain error in the jury’s finding
that a contract was formed. See Go Daddy Software,
Inc., 581 F.3d at 961–62.
4. The statute of frauds does not bar Long’s
claims. Based on the evidence presented at trial, a reasonable trier-of-fact could find that the agreement, by
its terms, could have been performed within a year. See
White Lighting Co. v. Wolfson, 68 Cal. 2d 336, 341, 344
(1968).
5. The district court did not err in its evidentiary
rulings, which we review for an abuse of discretion.
United States v. Evans, 728 F.3d 953, 959 (9th Cir.
2013). The letter Defendants sought to rely on was
hearsay and falls under no exception. See Fed. R. Evid.
801. Further, the district court did not abuse its discretion in denying evidence related to “offset values,” as

4a
Defendants failed to produce that evidence in response
to Long’s discovery requests. See Fed. R. Civ. P. 26, 37.
AFFIRMED.

5a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JOEY LONG,
Plaintiff,
v.
AUTHENTIC ATHLETIX
LLC, et al.,
Defendants.

Case No.
16-cv-03129-JSC
ORDER RE: MOTION
FOR JUDGMENT AS
A MATTER OF LAW
(Filed Oct. 9, 2018)
Re: Dkt. No. 150

Plaintiff Joey Long sued Authentic Athletix LLC
and Peter Schaffer (together, “Defendants”) for breach
of contract and related claims. (Dkt. No. 53.)1 At trial,
the jury returned a verdict in favor of Plaintiff, (Dkt.
No. 143), and the Court entered judgment accordingly,
(Dkt. No. 144). Now pending before the Court is Defendants’ renewed motion for judgment as a matter of
law notwithstanding the verdict, pursuant to Federal
Rule of Civil Procedure 50(b). (Dkt. No. 150.) After
careful consideration of the parties briefing and the
trial record, the Court concludes that oral argument is
unnecessary, see N.D. Cal. Civ. L.R. 7-1(b), and DENIES Defendants’ motion.

1

Record citations are to material in the Electronic Case File
(“ECF”); pinpoint citations are to the ECF-generated page numbers at the top of the documents.

6a
DISCUSSION
The factual background of this case is set out in
detail in the Court’s December 19, 2017 order denying
Defendants’ motion for summary judgment. (See Dkt.
No. 87 at 1-3.) On July 10, 2018, during trial and before
the case was submitted to the jury, Defendants moved
for directed verdict pursuant to Rule 50(a) on the following grounds: (1) the oral agreement was barred by
the statute of frauds and no exception to the statute of
frauds applies; and (2) the statute of limitations for
breach of an oral agreement barred Plaintiff ’s claims.
The Court denied Defendants’ motion and submitted
the case to the jury, who found in favor of Plaintiff. After trial, Defendants filed the instant motion under
Rule 50(b) on the following grounds: (1) the Court lacks
personal jurisdiction over Defendants; (2) the statute
of frauds requires the agreement at issue to be in writing; (3) Plaintiff failed to set forth the necessary elements showing formation of a valid contract; (4) the
statute of limitations for breach of an oral contract precludes Plaintiff ’s claims; and (5) the Court failed to admit relevant evidence by deeming the evidence
inadmissible as hearsay.
“A Rule 50(b) motion for judgment as a matter of
law is not a freestanding motion.” E.E.O.C. v. Go Daddy
Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009). It is
instead “a renewed Rule 50(a) motion.” Id. As the
Ninth Circuit has explained:
Because it is a renewed motion, a proper postverdict Rule 50(b) motion is limited to the
grounds asserted in the pre-deliberation Rule

7a
50(a) motion. Thus, a party cannot properly
raise arguments in its post-trial motion for
judgment as a matter of law under Rule 50(b)
that it did not raise in its preverdict Rule
50(a) motion.
Id. (internal quotation marks and citations omitted).
“A motion for judgment notwithstanding the verdict
should not be granted unless the evidence, viewed in
the light most favorable to the prevailing party, permits only one reasonable conclusion.” Cordero v. Cia
Mexicana De Aviacion, S.A., 681 F.2d 669, 672 (9th Cir.
1982); see also Josephs v. Pacific Bell, 443 F.3d 1050,
1062 (9th Cir. 2006) (“The test applied is whether the
evidence permits only one reasonable conclusion, and
that conclusion is contrary to the jury’s verdict.”).
Defendants’ preverdict oral motion under Rule
50(a) asserted only the statute of frauds and statute of
limitations for breach of an oral agreement as grounds
for directed verdict. (See Dkt. No. 136-1 at 2.)2 Thus,
the Court may only consider those grounds in ruling
on Defendants’ renewed motion under Rule 50(b). See
Fed. R. Civ. P. 50 advisory committee’s note to 2006
2

Defendants submitted no briefing at trial in support of their
oral, preverdict motion for directed verdict under Rule 50(a). Further, Defendants did not submit a court reporter’s transcript in
support of the instant Rule 50(b) motion or even a declaration of
counsel. Thus, there is no evidence that Defendants even made a
Rule 50(a) motion, let alone evidence of the grounds raised in the
instant motion. For this reason alone, Defendants’ motion could
be denied. Notwithstanding Defendants’ failure, the Court has reviewed the Trial Log, (Dkt. No. 136-1), and the rough transcript
provided by the court reporter to confirm the grounds on which
Defendants based their oral preverdict Rule 50(a) motion.

8a
amendment (“Because the Rule 50(b) motion is only a
renewal of the preverdict motion, it can be granted
only on grounds advanced in the preverdict motion.”);
see also Murphy v. City of Long Beach, 914 F.2d 183,
186 (“[Judgment notwithstanding the verdict] is improper if based upon grounds not alleged in a directed
verdict [motion].”). However, because the parties devote substantial portions of their briefing to Defendants’ argument regarding personal jurisdiction, the
Court addresses that argument below.
A. Personal Jurisdiction
On July 5, 2016, Defendants filed a motion to dismiss for lack of personal jurisdiction pursuant to Rule
12(b)(2). (Dkt. No. 15.) The Court denied Defendants’
motion to dismiss after applying the three-pronged
test set forth in Schwarzenegger v. Fred Martin Motor
Co., 374 F.3d 797, 802 (9th Cir. 2004) and concluding
that the Court had specific jurisdiction over Defendants. (See Dkt. No. 42 at 4-12.)
Defendants did not argue lack of personal jurisdiction as a defense in their motion for summary judgment. (See Dkt. No. 75.) Defendants did not submit a
pre-trial statement of the case or other briefing addressing the issue of personal jurisdiction. At trial, Defendants’ first set of proposed jury instructions did not
include instructions on personal jurisdiction. (See Dkt.
No. 117.) Defendants’ supplemental proposed jury instructions also did not include instructions on personal
jurisdiction. (See Dkt. No. 129.) Defendants did not

9a
object to the Court’s proposed jury instructions, (Dkt.
No. 132), or the Court’s proposed verdict form, (Dkt.
No. 133), on the grounds that they did not address personal jurisdiction.3 Thus, Defendants never put Plaintiff to the burden of proving personal jurisdiction by a
preponderance of the evidence. See Peterson v. Highland Music, Inc., 140 F.3d 1313, 1319 (9th Cir. 1998)
(when the plaintiff prevailed on the defendants’ motion
to dismiss for lack of personal jurisdiction under a
prima facie standard, and the defendants did not contest the issue any further at trial, “defendants may
seek appellate review only of the issue that they actually contested below: whether or not plaintiffs made
out a prima facie case for personal jurisdiction, and
whether the district court was correct in denying the
motion to dismiss.”). Thus, Defendants’ motion fails.
Further, Defendants did not argue lack of personal
jurisdiction as grounds for directed verdict in their preverdict Rule 50(a) motion. Thus, Defendants cannot argue lack of personal jurisdiction in their renewed
motion under Rule 50(b). See Go Daddy Software, Inc.,
581 F.3d at 961; Fed. R. Civ. P. 50 advisory committee’s
note to 2006 amendment.
3

Defendants did not file written objections to the Court’s
proposed instructions or verdict form, nor did Defendants submit
a transcript indicating that they orally objected to same. The
Court reviewed the court reporter’s rough transcript from Day 3
of the trial (July 11, 2018) to confirm that Defendants did not object to the Court’s proposed jury instructions based on lack of instruction regarding personal jurisdiction. Defendants did object,
however, to the instruction on the statute of limitations and lack
of an instruction on the affirmative defense of waiver.

10a
B. Statute of Frauds
Defendants argue that the statute of frauds applies to the agreement at issue because it was an oral
agreement that could not be performed within one
year. Specifically, because the oral agreement was for
agent fees arising out of an underlying three-year employment contract between the athlete (Mr. Joey
Browner) and his NFL team, “there is no way that Defendant[s] would be able to pay Plaintiff his three-year
entitlement in one year because Defendant[s] would
not have been given [their percentage owed under the
underlying contract] within [one] year.”4 (Dkt. No. 150
at 9.)
Under California law, the statute of frauds “applies only to those contracts, which by their terms, cannot possibly be performed within one year.” White
Lighting Co. v. Wolfson, 68 Cal. 2d 336, 343 (1968) (emphasis added). In the employment context, the statute
of frauds does not apply to “contracts for an indefinite
period merely because the contract provides that payment will be forthcoming on termination of the employment relationship.” Id. at 344. Nor does it apply to
employment contracts that provide that “compensation for the [employee’s] services is to be measured by
their value to their employer over a period of more
than one year.” Id. In other words, an employment contract term contemplating compensation outside of one
4

Defendants did not submit as evidence during trial the underlying contract between Authentic Athletix LLC and Mr.
Browner.

11a
year “does not in itself convert the oral employment
contract into one which by its terms cannot be performed within a year.” See id. at 343-44 (concluding
that “contractual provision that [employee] would receive one percent of the annual gross sales of [employer] exceeding one million dollars per year” did not
put the oral contract within the statute of frauds).
The Court’s previous order denying Defendants’
motion for summary judgment, (Dkt. No. 87 at 6-8), rejected the same argument based on the statute of
frauds, and the evidence proffered at trial does not
change the Court’s earlier conclusion on that score.
Viewing the evidence in the light most favorable to
Plaintiff, his employment contract with Defendants
could have been performed within one year; that is, it
was an at-will agreement that could be terminated by
either side at any time. Even if, as Defendants argue,
Plaintiff believed he would still be entitled to 40% of
what Defendants received from Mr. Browner outside of
the first year, that does not mean the contract cannot
be performed within a year and thus falls within the
statute of frauds. See White Lighting Co., 68 Cal. 2d at
344 (“Since . . . the alleged oral contract may be terminated at will be [sic] either party, it can, under its
terms, be performed within one year. When [plaintiff ’s]
employment relationship with [defendant] was terminated, [plaintiff ] had completely performed; [defendant’s] performance consisted of nothing more than
compensating [plaintiff ].”).
Based on the evidence presented at trial, a reasonable-trier-of fact could find that the oral agreement

12a
between Plaintiff and Defendants could have been performed within one year because there was no evidence
demonstrating that by the terms of the agreement it
could not “possibly be performed within one year.” Id.
at 343. Mr. Browner could have ceased paying agent
fees to Defendants, and Plaintiff or Defendants could
have terminated their employee-employer relationship
at any time. Further, Defendants proffered no evidence
at trial from which the Court could conclude that the
statute of frauds was otherwise applicable and barred
Plaintiff ’s claims.
Accordingly, the Court denies Defendants’ Rule
50(b) motion on the asserted statute of frauds grounds.
C. Statute of Limitations
Defendants’ motion sets forth the following argument regarding application of the statute of limitations for breach of an oral contract:
Defendants raised the SOL affirmative defense [at trial] and the trial court instructed
the jury on the SOL defense, however, nowhere on the jury verdict form was there a
place for the jury to decide on the defense. Being that part, if not the whole lawsuit, is subject to invalidation on the grounds of the SOL,
it is clear error for the court to have omitted
any mention of the SOL defense on the jury
verdict form.
(Dkt. No. 150 at 12-13.) First, Defendants did not object to the Court’s proposed verdict form, nor did

13a
Defendants submit their own proposed form before or
during trial. Thus, Defendants waived any objection to
the verdict form “by failing to raise [it] until after the
jury had rendered its verdict and was discharged.” See
Yeti by Molly, Ltd. v. Deckers Outdoor Corp., 259 F.3d
1101, 1109 (9th Cir. 2001) (holding that defendant
waived its objections to the verdict form itself by not
objecting prior to the jury’s dismissal). Second, the verdict form asked the jury if it found that the agreement
was “founded upon a written instrument.” (Dkt. No.
143 at 1.) The jury answered affirmatively. (Id.) Thus,
the two year statute of limitations for breach of an oral
agreement did not apply. If the jury had found differently and determined that the agreement was not
founded upon a written instrument, the Court would
have applied the statute of limitations for breach of an
oral contract and barred any recovery for damages
prior to June 8, 2014. The Court told the parties as
much outside the presence of the jury when it denied
Defendants’ motion for directed verdict on July 10,
2018.5
Defendants further argue that “the court used the
date of the amended compliant [sic] of December 2016,
rather that [sic] than of the original complaint as the
actual filing” for statute of limitations purposes. (Id. at
12.) Defendants are wrong. The jury instructions
clearly state that to succeed on their statute of limitations defense, Defendants were required to “prove that
the agreement was not founded upon an instrument in
5

The Court has reviewed the court reporter’s rough transcript for Day 2 of the trial (July 10, 2018).

14a
writing, and that the agreement was breached before
June 8, 2014.” (Dkt. No. 134 at 20.)
Viewing the evidence in the light most favorable
to Plaintiff, a reasonable trier-of-fact could find that
the agreement was founded upon a written instrument
based on emails between Plaintiff and Mr. Schaffer in
September 2011 and February 2012. (Trial Exs. 3, 15,
58, 78.) For an action to be founded upon an instrument in writing, the writing at issue must “contain a
contract to do the thing for the nonperformance of
which the action is brought.” E.O.C. Ord, Inc. v. Kovakovich, 200 Cal. App. 3d 1194, 1199 (Cal. Ct. App.
1988) (internal quotation marks and citation omitted).
“In other words, the writing must contain the terms of
the contract. It cannot be only remotely or indirectly
connected with the transaction or only a link in the
chain establishing the cause of action.” Id. A contract
need not be signed to be considered “in writing” for
statute of limitations purposes; instead, a written offer
may be accepted orally or by acceptance of performance. Amen v. Merced Cty. Title Co., 58 Cal. 2d 528,
532 (1962); see also E.O.C. Ord, Inc., 200 Cal. App. 3d
at 1201.
On September 13, 2011, Plaintiff emailed Mr.
Schaffer, stating in pertinent part: “I will accept 40%
on Brandon Browner being that I single handedly recruited him, housed him and invested into his travel
and living expenses.” (Trial Ex. 3.) Mr. Schaffer replied,
in pertinent part: “Tuesdays are crazy. Let’s talk tonight.” (Id.) On February 8, 2012, Mr. Schaffer emailed
Plaintiff, stating in pertinent part:

15a
[Brandon Browner] syas [sic] he is sending
check tonight here is the math – for your commissions etc.
Amoutn [sic] being sent $11,250
Forty percent for you is $4,500 minus your expenses and by the way I am not charging you
unless you want me to 40% on the 900$ pro
bowl dinner. You want to pay 40% on that then
I will send you elss [sic].
(Trial Ex. 15) (emphasis added.) A reasonable trier-offact could find that Plaintiff ’s September 2011 email
demanding 40% of Brandon Browner’s agent fees constituted an offer in writing. A reasonable trier-of-fact
could also find from Defendants’ subsequent conduct
in expressly paying Plaintiff 40% of Brandon
Browner’s fees that Defendants accepted Plaintiff ’s offer. Thus, it was not unreasonable for the jury to find
that the agreement between Plaintiff and Mr. Schaffer
was founded upon a written instrument.
Accordingly, the Court denies Defendants’ Rule
50(b) motion on the asserted statute of limitations
grounds.
CONCLUSION
For the reasons set forth above, the Court DENIES Defendants’ Rule 50(b) motion for judgment as a
matter of law notwithstanding the verdict.

16a
This Order disposes of Docket No. 150.
IT IS SO ORDERED.
Dated: October 9, 2018.
/s/ Jacqueline Scott Corley
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

17a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JOEY LONG,
Plaintiff,
v.
AUTHENTIC ATHLETIX
LLC, et al.,
Defendants.

Case No.
16-cv-03129-JSC
ORDER DENYING
DEFENDANTS’ MOTION TO DISMISS
(Filed Mar. 20, 2017)
Re: Dkt Nos. 54 & 57

Plaintiff Joey Long (“Plaintiff ”) seeks to recover
damages from Peter Schaffer (“Schaffer”) and Authentic Athletix LLC (together, “Defendants”), based on
breach of a written contract and related claims. The
Court previously granted Defendants’ motion to dismiss for failure to state a claim upon which relief could
be granted. (Dkt. No. 52.) Thereafter Plaintiff filed
his First Amended Complaint (“FAC”). (Dkt. No. 53.)
Defendants subsequently filed related motions to dismiss Plaintiff ’s FAC on various grounds under Rule
12(b). (Dkt. Nos. 54 & 57.) Having carefully considered
the parties’ submissions, and having had the benefit of
oral argument on March 9, 2017, the Court DENIES
Defendants’ motion1.
1

Authentic Athletix filed a motion to dismiss Plaintiff ’s
FAC. (Dkt. No. 54.) Schaffer subsequently filed a second motion
to dismiss, which mirrored the arguments and defenses put forth
in Authentic Athletix’s motion, while also adding new arguments.
(Dkt. No. 57.) This Order cites to Schaffer’s motion (Dkt. No. 57)
but disposes of both motions to dismiss. (Dkt. Nos. 54 & 57.)

18a
BACKGROUND
I.

Factual Allegations

In June 2010, Plaintiff entered into an oral agreement with Schaffer, and/or Schaffer’s sports agency,
Authentic Athletix. (Dkt. No. 53 ¶ 8.) Plaintiff agreed
to recruit National Football League (“NFL”) players to
sign NFL Players Association Standard Representation Agreements (“Representation Agreements”) with
Defendants. (Id.) Defendants, in turn, agreed to pay
Plaintiff 33% of 3% of the net proceeds for each player
that Plaintiff recruited to sign a Representation Agreement with Defendants and 40% of 3% for certain, designated players. (Id. ¶ 9.)
At the time the parties entered into the oral agreement, Schaffer—an attorney and member of the bar
in Colorado—worked for All Sports Pro and Entertainment (“All Sports”). (Id. ¶¶ 10-11.) Schaffer informed
Plaintiff that he would soon be resigning from All
Sports so he wanted to wait to execute a written agreement to avoid the possibility of litigation with All
Sports. (Id. ¶ 11.) Plaintiff agreed, so the parties did
not enter a written agreement at that time. (Id. ¶ 12.)
Sometime in 2010, due to Plaintiff ’s efforts, NFL
player Brandon Browner signed with Defendants as
his agent in negotiations for his 2011 NFL contract
with the Seattle Seahawks. (Id. ¶ 18.)
On September 13, 2011, Schaffer informed Plaintiff via email that he had resigned from All Sports and
created his own company, Authentic Athletix. (Id.
¶ 13.) In a series of emails that followed, Plaintiff and

19a
Schaffer “voided their previous written and oral contract with [All Sports]” and negotiated a new agreement between Plaintiff, Schaffer, and Schaffer’s new
company, Authentic Athletix. (Id. ¶ 14.) Under the
terms of this new agreement, which were memorialized via email, Defendants would pay Plaintiff 33% of
3% of the proceeds for each Player that signed a Representation Agreement, except Plaintiff would receive
40% of 3% of the proceeds for Brandon Browner.2 (Id.
¶ 15.) Defendants agreed, also via email, to provide
Plaintiff a written contract with these same terms.
(Id. ¶ 16.) In a subsequent phone call, the parties confirmed the terms of their agreement and agreed that
Plaintiff would continue his recruiting efforts in California on behalf of the Defendants. (Id. ¶ 17.) Defendants provided Plaintiff with Authentic Athletix
business cards and a company email address. (Id.)
Schaffer also requested that Plaintiff contact All
Sports to inform them that Plaintiff would no longer
work for them because he was now working for Authentic Athletix. (Id.) Plaintiff did so. (Id.) Over the
next few years, Plaintiff repeatedly requested a written contract memorializing the parties’ agreement, but
Defendants refused to provide one “so as to continue
[their] perpetration fraud upon Plaintiff.” (Id. ¶ 23.)

2

The complaint does not specify the timing of Plaintiff ’s
payments – that is, whether he would be paid per month, per
year, or per NFL season. However, based on later FAC allegations, Plaintiff appears to have been paid per season. (See Dkt.
No. 53 ¶¶ 20-22.)

20a
Sometime after February 8, 2012, Plaintiff received his first check from Authentic Athletix, signed
by Schaffer, amounting to Plaintiff ’s 40% share of
Mr. Browner’s fee minus expenses. (Id. ¶ 20.) The
check also included an accounting which detailed how
Defendants calculated the fee. (Id.) Every payment
Defendants made to Plaintiff in subsequent seasons
amounted to less than 40% of Mr. Browner’s representation fees and did not include an accounting. (Id.
¶¶ 21-22.)
Plaintiff repeatedly requested a copy of Mr.
Browner’s contract to verify that Defendants were
compensating him according to the terms of their
agreement but to no avail. (Id. ¶ 23.) Eventually, Plaintiff obtained a copy of Mr. Browner’s contract on his
own and discovered Defendants had been paying him
less than the agreed upon amount. (Id. ¶ 24.) On February 14, 2016, Defendants sent Plaintiff a check for
$31,000 which he never cashed. (Id. ¶¶ 25, 30.) Shortly
thereafter Plaintiff contacted Defendants to inform
them that the check was “short” of the amount due. (Id.
¶ 26.) Schaffer responded by telling Plaintiff that he
would no longer pay him or speak to him at all. (Id.)
On March 28, 2016, Plaintiff had an attorney
contact Schaffer to ask why his check was short and
when he could expect full payment for services rendered. (Id. ¶ 27.) Schaffer told Plaintiff ’s attorney that
he was willing to speak to Plaintiff to resolve their dispute. (Id.) Plaintiff and Schaffer spoke later the same
day, but they did not reach a resolution. (Id. ¶ 28.) Instead, Schaffer again indicated that he would not pay

21a
Plaintiff for any past due or future fees. (Id.) Schaffer
confirmed as much in an email following the phone
call. (Id. ¶ 29.)
Plaintiff alleges that Schaffer misrepresented his
intent to pay Plaintiff the agreed upon amount, and
Plaintiff relied on that misrepresentation. (Id. ¶¶ 5658.) Specifically, Plaintiff alleges that Schaffer never
intended to pay Plaintiff for his services. (Id. ¶ 63.)
Plaintiff would not have contracted with Defendants
absent Schaffer’s representations. (Id. ¶ 64.)
Accordingly, Defendants owe Plaintiff money for
the recruitment services he rendered over the last four
years. (Id. ¶ 43.) To date, Mr. Browner has signed NFL
contracts in excess of $28,000,000.00. (Id. ¶ 35.) Defendants have earned approximately $857,850.00 for
representing Mr. Browner. (Id.) Thus under the terms
of their agreement, Plaintiff is entitled to approximately $343,140.00. (Id.)
II.

Procedural History

Plaintiff filed this action on June 8, 2016, alleging
that Defendants breached an oral agreement that
the parties had entered into in June 2010. (Dkt. No. 1.)
The Clerk of Court entered default against both Defendants in July (Dkt. Nos. 13, 14), but later clarified
that the default against Schaffer had been entered in
error, and the Court vacated the entry of default
against Authentic Athletix. (Dkt. No. 39.) In October
2016 the Court denied Defendants’ motion to dismiss
for lack of personal jurisdiction. (Dkt. No. 42.) The

22a
Court then granted Defendants’ 12(b)(6) motion to dismiss for failure to state a claim, noting that instead of
responding to Defendants’ argument that the alleged
agreement fell within the statute of frauds, Plaintiff
alleged a different agreement altogether. (Dkt. No. 52
at 1-2.)
Plaintiff subsequently filed the First Amended
Complaint (“FAC”) on December 29, 2016. (Dkt. No.
53.) The FAC is largely identical to the first complaint
except that it alleges that the parties also entered into
a written contract, memorialized via email, in September 2011 which constitutes the contract now at issue
in this action. (Id.) The FAC includes seven causes of
action: (1) breach of contract; (2) unjust enrichment; (3)
money had and received; (4) constructive trust; (5) conversion; (6) misrepresentation; and (7) fraud. (Id. at 1.)
Plaintiff is seeking damages and attorney’s fees. (Id. at
11.) The present motion to dismiss followed. (Dkt. No.
54.)
DISCUSSION
Defendants move to dismiss under Federal Rule of
Civil Procedure 12(b) on a number of grounds: (1)
Plaintiff has not met the jurisdictional minimum for
the amount in controversy under 28 U.S.C. section
1332(a); (2) the statute of limitations bars Plaintiff ’s
breach of contract claims; (3) the statute of frauds precludes enforcing any oral contract that may have existed between the parties; (4) Plaintiff has not proven
that a written contract exists; (5) Plaintiff has not

23a
adequately alleged his fraud claim; (6) the statute of
limitations bars Plaintiff ’s fraud claim; (7) Plaintiff
will be unjustly enriched; and (8) Defendant Schaffer
is not a proper party in interest. (Dkt. No. 57 at 5-22.)
Defendants have not specified which Rule 12(b) subsection they assert in connection with any of their arguments. (Id. at 4.) The Court construes Defendants
to have moved to dismiss under Rules 12(b)(1) and
12(b)(6).3
A. 12(b)(1) Motion to Dismiss
Defendants first argue that Plaintiff has not met
the jurisdictional requirement of 28 U.S.C. section
1332(a) because Plaintiff failed to prove that the
amount in controversy exceeds $75,000. (Dkt. No. 57
at 5.) Although Defendants do not expressly cite the
rule, the Court construes this as a Rule 12(b)(1) motion
challenging the Court’s subject matter jurisdiction.
See Fed. R. Civ. P. 12(b)(1).
“Federal courts are courts of limited jurisdiction,”
and it is “presumed that a cause lies outside this limited jurisdiction.” Kokkonen v. Guardian Life Ins. of
Am., 511 U.S. 375, 377 (1994). Thus, the party invoking
the jurisdiction of the federal court bears the burden of

3

The Court can properly consider this as a motion brought
under Rule 12(b)(1) and 12(b)(6). See Andersen v. United States,
298 F.3d 804, 807 (9th Cir. 2002) (“The substance of the motion,
not its form, controls its disposition.”); see also Hasbrouck v. Texaco, Inc., 879 F.2d 632, 635 (9th Cir. 1989) (“The nomenclature
the movant uses is not controlling”).)

24a
establishing that the court has the requisite subject
matter jurisdiction to grant the relief requested. Id.
“The sufficiency of the pleadings to establish subject matter jurisdiction is determined by whether the
movant brings a facial or factual challenge.” NewGen,
LLC v. Safe Cig, LLC, 840 F.3d 606, 614 (9th Cir. 2016).
In a facial attack, the jurisdictional challenge is confined to the allegations pled in the complaint. See Wolfe
v. Strankman, 392 F.3d 358, 362 (9th Cir. 2004). The
challenger asserts that the allegations in the complaint are insufficient “on their face” to invoke federal
jurisdiction. See Safe Air Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). To resolve
this challenge, the court assumes that the complaint’s
allegations are true and draws all reasonable inferences in favor of the party opposing dismissal, similar
to a 12(b)(6) motion. See Wolfe, 392 F.3d at 362. “By
contrast, in a factual attack, the challenger disputes
the truth of the allegations that, by themselves, would
otherwise invoke federal jurisdiction” by offering affidavits or other evidence to dispute the allegations in
the complaint. Safe Air, 373 F.3d at 1039. To resolve
this challenge, the court “need not presume the truthfulness of the plaintiff ’s allegations.” Id. (internal citations omitted). Instead, Plaintiff “bears the burden of
proving by a preponderance of the evidence that each
of the requirements for subject-matter jurisdiction has
been met.” Leite v. Crane Co., 749 F.3d 1117, 1121 (9th
Cir. 2014) (citing Harris v. Rand, 682 F.3d 846, 850-51
(9th Cir. 2012)). However, “if the existence of jurisdiction turns on disputed factual issues, the district court

25a
may resolve those factual disputes itself.” Leite, 749
F.3d at 1121-22.
Defendants’ challenge to the Court’s subject matter
jurisdiction is a factual attack: Defendants attached a
demand letter to their motion4 in which Plaintiff states
that Defendants owed him $41,800.00 as of March 17,
2016. (Dkt. No. 54-1 at 1.) Defendants argue that
Plaintiff ’s new damages figure in his FAC is “doubledipping from the demand letter” and that his math is
“confusing and duplicative.” (Dkt. No. 57 at 6.) They
contend that Plaintiff has failed to prove the amount
in controversy “by a preponderance of the evidence.”
(Id. at 5.)
Plaintiff, in turn, argues that the figures in the
demand letter were “best estimates for the 2013, 2014,
and 2015 seasons” and the demand letter “discounts
the 2015 amount as Plaintiff had a $31,000 check in
hand and was not including the full $60,000 owed in
his demand . Moreover the demand letter did not include the amount owed for 2016.” (Dkt. No. 56 at 8.)
Plaintiff has met his burden of proving jurisdiction by a preponderance of the evidence. Plaintiff explains that the amount that he demanded in the initial
demand letter—$41,800—does not include the full
4

Authentic Athletix attached the demand letter to their motion to dismiss (Dkt. No. 54), but Schaffer did not attach it to his
motion. (Dkt. No. 57.) Because the Court is considering the motions together, see supra footnote 1, the Court will consider the
demand letter as extrinsic evidence of the amount in controversy.
Courthouse News Serv. v. Planet, 750 F.3d 776, 780 (9th Cir.
2014).

26a
$60,000 that Plaintiff is entitled to for the 2015 season,
nor does it include the amount Defendants owe Plaintiff for the 2016 season. (Dkt. No. 56 at 8.) It light of
this explanation, the Court finds that it is more likely
than not that the amount in controversy is over
$75,000. Accordingly, the Court has subject matter
jurisdiction.
B. 12(b)(6) Motion to Dismiss
Defendants make various arguments and affirmative defenses in support of their motion to dismiss:
(1) the statute of limitations bars Plaintiff ’s breach of
contract claims; (2) Plaintiff has not adequately alleged his breach of contract claim; (3) the statute of
frauds precludes enforcement of the contract; (4) Plaintiff has not adequately alleged his fraud claim; (5) the
statute of limitations bars Plaintiff ’s fraud claim; (6)
the statute of frauds precludes Plaintiff ’s unjust enrichment claim; and (7) Defendant Schaffer is not a
proper party in interest. (Dkt. No. 57 at 7-12.)
Although Defendants do not reference Rule
12(b)(6) in their motion, the Court construes these as
arguments brought under 12(b)(6) because they all go
to whether the FAC states a claim. See Fed. R. Civ. P.
12(b)(6). Because the Court is sitting in diversity, it
applies California’s choice-of-law rules in deciding
what law applies to the alleged contract. See Bridge
Fund Capital Corp. v. Fastbucks Franchise Corp., 622
F.3d 996, 1002 (9th Cir. 2010) (stating that “[a] federal
court sitting in diversity applies the forum state’s

27a
choice of law rules”). The California choice-of-law provision for a breach of contract action states, “A contract
is to be interpreted according to the law and usage of
the place where it is to be performed; or, if it does not
indicate a place of performance, according to the law
and usage of the place where it is made.” Cal. Civ. Code
§ 1646. Defendants have not challenged the presumption that California substantive law applies here, so
the Court applies California law.
1. Breach of Contract
a. Plaintiff Has Adequately Alleged
a Breach of Contract Claim
The elements of breach of contract under California law are: (1) a contract existed between the parties;
(2) the plaintiff performed her contractual duties or
was excused from nonperformance; (3) the defendant
breached those contractual duties; and (4) plaintiff ’s
damages were a result of the breach. Buschman v.
Anesthesia Bus. Consultants, LLC, 42 F. Supp. 3d 1244,
1250 (N.D. Cal. May 13, 2014) (citing CDF Firefighters
v. Maldonado, 158 Cal. App. 4th 1226, 1239 (2008)).
Breach of contract claims are subject to the notice
pleading standard of Rule 8(a), which requires only “a
short and plain statement of the claim showing that
the pleader is entitled to relief. Fed. R. Civ. P. 8(a).
Defendants argue that Plaintiff has not established the first element: the existence of a contract
between the parties. (Dkt. No. 57 at 7.) Specifically,
Defendants contend that the emails between Plaintiff

28a
and Defendants do not constitute a valid contract for a
variety of reasons, including: Plaintiff failed to attach
the emails to his complaint; they do not demonstrate a
meeting of the minds as to the material terms; they
were not intended to be binding; and there was never
any offer or acceptance. (Id. at 7-11.)
“Under California law, to state a claim for breach
of contract a plaintiff must plead the contract, plaintiffs’ performance (or excuse for nonperformance), defendant’s breach, and damage to plaintiff therefrom.”
Low v. LinkedIn Corp., 900 F. Supp. 2d 1010, 1028
(N.D. Cal. July 12, 2012) (internal quotations omitted).
“A written contract may be pleaded either by its
terms—set out verbatim in the complaint or a copy of
the contract attached to the complaint and incorporated therein by reference—or by its legal effect.”
McKell v. Washington Mut., Inc., 142 Cal. App. 4th
1457, 1489 (2006); accord Haskins v. Symantec Corp.,
No. 13-cv-01834-JST, 2013 WL 6234610, *10 (N.D. Cal.
Dec. 2, 2013). “In order to plead a contract by its legal
effect, plaintiff must allege the substance of its relevant terms.” McKell, 142 Cal. App. 4th at 1489.
Plaintiff alleges the terms of the parties’ agreement as: Defendants would pay Plaintiff 33% of 3% of
the representation fees for recruiting NFL players to
sign Representation Agreements with Defendants, and
40% of 3% for Brandon Browner. (Dkt. No. 53 ¶ 15.)
Plaintiff would continue his recruiting efforts on behalf
of Defendants in California under these terms. (Id.
¶ 17.) The crux of the parties’ agreement was that
Defendants would compensate Plaintiff for recruiting

29a
NFL players to sign with Defendants. Plaintiff alleges
these relevant terms, including the exact percentages
of the representation fees that Plaintiff would receive
for recruiting both regular, unspecified players and for
recruiting Mr. Browner. (Id. ¶¶ 14-15, 17.) Plaintiff has
sufficiently pled the contract.
Defendants next contend that there is no enforceable contract because there was no meeting of the
minds as to the material terms, offer and acceptance,
and Schaffer did not intend to be bound. (Dkt. No. 57
at 7, 9.)
Mutual assent is required to form a contract.
Binder v. Aetna Life Ins. Co., 75 Cal. App. 4th 832, 850
(1999). California courts use an objective standard
when analyzing whether mutual assent existed: “[A
plaintiff ’s] uncommunicated subjective intent is not
relevant. The existence of mutual assent is determined
by objective criteria. The test is whether a reasonable
person would, from the conduct of the parties, conclude
that there was mutual agreement.” Hilleary v. Garvin,
193 Cal. App. 3d 322, 327 (1987) (internal citations
omitted); see also Roth v. Malson, 67 Cal. App. 4th 552,
557 (1998). Both actions and words are relevant. See
Merced County Sheriff ’s Employees’ Assn. v. County of
Merced, 188 Cal. App. 3d 662, 670 (1987). Accordingly,
“[the] offer must be sufficiently definite, or must call
for such definite terms in the acceptance that the performance promised is reasonably certain.” Ladas v.
California State Automobile Ass’n., 19 Cal. App. 4th
761, 770 (1993). “The terms of a contract are reasonably certain if they provide a basis for determining the

30a
existence of a breach and for giving an appropriate
remedy.” Weddington Prods. Inc., v. Flick, 60 Cal. App.
4th 793, 811-12 (1998) (internal quotations and citation omitted). “[A]cceptance of an offer . . . may be manifested by conduct as well as by words,” Russell v.
Union Oil Co., 7 Cal. App. 3d 110, 114 (1970), and may
be “implied through action or inaction.” Knutson v.
Sirius XM Radio Inc., 771 F.3d 559, 565 (9th Cir. 2014);
see Carnival Cruise Lines, Inc. v. Shute, 499 U.S. 585,
593-95 (1991). The parties need not affirmatively assent to each term or provision. “The manifestation of
assent to a contractual provision may be wholly or
partly by written or spoken words or by other acts or
by failure to act.” Merced County Sheriff ’s Employees’
Assn., 188 Cal. App. 3d at 670 (internal citations
omitted). The trier of fact must determine “whether a
reasonable person would necessarily assume . . . a willingness to enter into contract.” In re First Capital Life
Insurance Co., 34 Cal. App. 4th 1283, 1287 (1995) (internal citations omitted).
Plaintiff alleges that the parties negotiated the
agreement and its terms via email. (Dkt. No. 53 ¶¶ 1416.) After the parties executed the agreement, Plaintiff
continued his recruiting efforts for Defendants in California. (Id. ¶ 17.) Defendants provided Plaintiff with
business cards and a company email address. (Id.)
Approximately six months later, Defendants mailed
Plaintiff a check for 40% of 3% of Mr. Browner’s representation fees, the amount that the parties had agreed
upon under the contract’s terms. (Id. ¶ 20.) Construing
all inferences in Plaintiff ’s favor, and given the

31a
allegations as to Defendants’ subsequent conduct—
most notably that Defendants in fact paid Plaintiff the
agreed upon sum—the complaint plausibly alleges
mutual assent and a valid offer and acceptance.
Finally, Defendants contend that there was no
new consideration for the 2011 written contract that
replaced the voided oral agreement. (Dkt. No. 57 at 1820.) To be enforceable, a contract must be supported by
consideration. Cal. Civ. Code § 1550; see also US Ecology Inc., v. State of Cal., 92 Cal. App. 4th 113, 128
(2001) (“A promise is not enforceable unless consideration was given in exchange for the promise.”).) “Consideration consists of either a benefit to the promisor or a
detriment to the promisee. It is enough that something
is promised, done, forborne, or suffered by the party to
whom the promise is made as consideration for the
promise made to him.” Speirs v. Bluefire Ethanol Fuels,
Inc., 243 Cal. App. 4th 969, 987 (2015).
Plaintiff alleges that he and Defendant Schaffer
mutually voided their prior written and oral agreements with All Sports, and negotiated a new agreement via email, adding Defendant Authentic Athletix
as a party. (Dkt. No. 53 ¶ 14.) Under this new agreement, Plaintiff agreed to recruit NFL players to sign
representation agreements with Schaffer and now
with Authentic Athletix—a new party to the contract—
in exchange for a certain percentage of NFL players’
representation fees. (Id. ¶ 15.) The new agreement necessarily involved new consideration; Plaintiff had to
make a new promise to recruit players for Authentic

32a
Athletix in exchange for a fee. Accordingly, Plaintiff
has adequately alleged a breach of contract claim.
b. The Statute of Limitations Does Not
Bar a Breach of Contract Claim
Under California law, there is a two-year statute
of limitations for breach of an oral contract, and a fouryear limitations period for breach of a written contract.
Cal. Civ. Code §§ 337, 339. Defendants argue that the
statute of limitations bars a breach of contract claim in
connection with the 2010 oral agreement. (Dkt. No. 57
at 7.) Plaintiff alleges, however, that that oral agreement was “voided” and replaced by the 2011 email
agreement. (Dkt. No. 53 ¶ 14.) Thus, there is no claim
based upon the 2010 oral agreement. Defendants do
not argue that a claim for breach of the written contract is untimely under the longer, four-year statute of
limitations.
c. The Statute of Frauds Does Not
Preclude a Breach of Contract
Claim
Defendants next contend that the statute of frauds
precludes enforcement of the 2011 agreement, arguing:
(1) the parties’ agreement was entirely oral because
the Court cannot consider the emails when deciding a
motion to dismiss under Rule 12(b)(6) and, in any
event, the emails do not count as memoranda; (2) the
agreement is an employment or services agreement
that could not be performed within one year of its

33a
making; and (3) Plaintiff did not fully perform the
agreement. (Dkt. No. 57 at 13.)
The statute of frauds is an affirmative defense.
See Fed R. Civ. P. 8(c). It requires certain agreements,
“or some note, or memorandum thereof,” be in writing
or they are invalid. Cal. Civ. Code. § 1624. The memorandum need only “identif[y] the subject of the parties’
agreement, show[ ] that they made a contract, and
state[ ] the essential contract terms with reasonable
certainty.” Sterling v. Taylor, 40 Cal. 4th 757, 766
(2007). “A written memorandum is not identical with a
written contract [citation]; it is merely evidence of it
and usually does not contain all of the terms.” Crowley
v. Modern Faucet Mfg. Co., 44 Cal. 2d 321, 323 (1955).
Plaintiff alleges that the parties negotiated their
agreement entirely via email. (Dkt. No. 53 ¶¶ 14-16.)
Under their agreement’s terms, Defendants would pay
Plaintiff a percentage of representation fees for recruiting NFL players for some unspecified period of
time. (Dkt. No. 53 ¶¶ 14-15, 17.) While Defendants may
dispute the existence of the emails and what they do
and do not prove (Dkt. No. 57 at 16), it is enough at this
early stage that Plaintiff has alleged that they exist.
Construing all of Plaintiff ’s FAC allegations as true,
the emails constitute sufficient memoranda to remove
the agreement from the statute of frauds. Accordingly,
the Court need not address Defendants’ remaining
arguments and declines to dismiss on these grounds.

34a
2. Fraud
a. Plaintiff States a Fraud Claim
To state a fraud claim a plaintiff must allege (1)
misrepresentation, including a false representation,
concealment, or nondisclosure; (2) knowledge of falsity;
(3) intent to defraud, otherwise known as an intent to
induce reliance; (4) justifiable reliance; and (5) resulting damage. Engalla v. Permanente Med. Grp., Inc., 15
Cal. 4th 951, 974 (1997) (internal quotations and citation omitted).
California law recognizes both fraud in the execution and fraud in the inducement. Rosenthal v. Great
W. Fin. Sec. Corp., 14 Cal. 4th 394, 415 (1996). The former occurs when “the promisor is deceived as to the
nature of his act, and actually does not know what he
is signing, or does not intend to enter into a contract at
all, mutual assent is lacking, and [the contract] is void.”
Ford v. Shearson Lehman American Express, Inc., 180
Cal. App. 3d 1011, 1028 (1986). The latter occurs when
“the promisor knows what he is signing but his consent
is induced by fraud, mutual assent is present and a
contract is formed, which, by reason of the fraud, is
voidable.” Id.
Fraud claims are subject to the heightened pleading standard of Rule 9(b), which requires a plaintiff to
“state with particularity the circumstances constituting fraud or mistake.” Fed. R. Civ. P. 9(b). A plaintiff
must include the “who, what, when, where, and how”
of the fraud. Vess v. Ciba-Geigy Corp. USA, 317 F.3d
1097, 1106 (9th Cir. 2003). Ultimately, “[a] pleading is

35a
sufficient under Rule 9(b) if it identifies the circumstances constituting fraud so that a defendant can prepare an adequate answer from the allegations.” Moore
v. Kayport Package Express, Inc., 885 F.2d 531, 540 (9th
Cir. 1989).
Plaintiff alleges that Schaffer misrepresented to
him that Defendants would compensate him 33% of 3%
of the net proceeds of the NFL players he recruited to
sign Representation Agreements, and 40% of 3% of the
proceeds from Brandon Browner, specifically. (Dkt. No.
53 ¶ 62.) Plaintiff believes Defendants had no intention to actually compensate him for his work. (Id.
¶ 63.) In support of his theory, Plaintiff alleges that Defendants perpetrated this fraud by refusing to provide
Plaintiff with Mr. Browner’s contract, or any accounting of the representation fees, in response to Plaintiff ’s
numerous requests. (Id. ¶ 65.)
These allegations are sufficient to put Defendants
on notice of the circumstances constituting fraud such
that they may prepare an adequate answer. Plaintiff
claimed that Defendants induced him to enter into the
contract by promising to compensate him; Defendants
had no intention to actually compensate him the correct amount; and Defendants purposely withheld an
accounting of the representation fees and the client
contracts in order to perpetrate the fraud. (Dkt No. 53
¶¶ 54-66.) Accordingly, Plaintiff has fulfilled the requirements for pleading fraud under Rule 9(b).

36a
b. The Statute of Limitations Does
Not Bar Plaintiff ’s Fraud Claims
“A claim that a cause of action is barred by the
statute of limitations is an affirmative defense.”
Fanucci v. Allstate Ins. Co., 638 F. Supp. 2d 1125, 1132
(N.D. Cal. June 30, 2009); see also Wyatt v. Terhune, 315
F.3d 1108, 1117-18 (9th Cir. 2003) (stating that “it is
well-settled that statutes of limitations are affirmative
defenses, not pleading requirements.”).)
Fraud claims are subject to a three-year statute
of limitations period. Cal. Code Civ. Proc. § 338(d). “The
cause of action in that case is not deemed to have accrued until the discovery, by the aggrieved party, of the
facts constituting the fraud or mistake.” Id. This discovery rule “postpones accrual of a cause of action until
the plaintiff discovers, or has reason to discover, the
cause of action.” Fox v. Ethicon Endo-Surgery, Inc., 35
Cal. 4th 797, 807 (2005).
From the face of the FAC, it is unclear first, when
Defendants first began paying Plaintiff less than the
agreed upon sum and not including the accounting of
the fees; and second, when Plaintiff discovered Defendants were shorting him. (Dkt. No. 53 ¶¶ 21-24.) Plaintiff alleges that Defendants paid him the correct
amount in February 2012, but “[a]fter this first payment, Defendant Schaffer, in direct contravention of
the agreement . . . began to pay Plaintiff less than the
contracted 40% on Browner’s representation fees.” (Id.
¶ 21.) However, Plaintiff does not allege when he discovered that Defendants were paying him less than the

37a
contracted amount, stating only that “[a]fter repeated
efforts, Plaintiff obtained a copy of Browner’s contract
on his own . . . [and] discovered that he had not been
paid the agreed upon 40% of 3% as contracted[.]” In his
opposition, Plaintiff states that he did discovered the
fraud in 2016; however, because he did not include this
fact in his FAC, the Court may not consider it. Lee v
City of Los Angeles, 250 F.3d 668, 688 (9th Cir. 2001).
Given that the that the FAC supports an inference
that Defendants were paying Plaintiff per season,5
and that they mailed Plaintiff his first check in 2012
(Dkt. No. 53 ¶ 20), the allegations plausibly support an
inference that Plaintiff did not receive his second,
short payment until at least 2013, and a copy of Mr.
Browner’s contract until sometime after that. Defendants have not met their burden of demonstrating that
Plaintiff ’s allegations prove that his fraud claim is
barred by the statute of limitations as a matter of law.
3. Unjust Enrichment
Defendants next argue that Plaintiff cannot pursue an unjust enrichment claim “if such claims are
based on an oral agreement barred by the statute of
frauds.” (Dkt. No. 57 at 21.) Plaintiff, however, brings a
claim for breach of a written contract which, at this
early stage of the proceedings, Defendants have not
shown is barred by the statute of frauds.

5

See supra footnote 2.

38a
4. Proper Party in Interest
Defendants lastly contend that Schaffer is not a
proper party in interest in this action, and is immune
as an officer or director of Authentic Athletix under a
corporate veil theory. (Id. at 22.)
Directors and officers are agents of the corporate
principal. See Frances T. v. Village Green Owners Assn.,
42 Cal. 3d 490, 505 (1986); see also APSB Bancorp. v.
Thornton Grant, 26 Cal. App. 4th 926, 931 (1994). “An
agent is liable for her or his own acts, regardless
whether the principal is also liable.” PMC, Inc. v.
Kadisha, 78 Cal. App. 4th 1368, 1381 (2000), as modified on denial of reh’g; see also Cal. Civ. Code, § 2343.
Defendants concede that an officer or director may
be joined as a defendant “if they personally directed
or participated in tortious conduct.” (Dkt. No. 57 at 22.)
Furthermore, an officer or director may also be personally liable for breach of contract if he purports to bind
himself individually or is acting as an alter ego of the
breaching party. U.S. Liab. Ins. Co. v. Haidinger-Hayes,
1 Cal. 3d 586, 595 (1970); Ultratech, Inc. v. Ensure
NanoTech (Beijing), Inc., 108 F. Supp. 3d 816, 826 (N.D.
Cal. June 5, 2015).
Plaintiff alleges that he communicated exclusively
with Schaffer; Schaffer asked Plaintiff to wait to sign
a formal contract until he had left All Sports, indicating he was binding himself as an individual; Plaintiff
and Schaffer negotiated the new contract via email;
and Schaffer made the representations to Plaintiff regarding his intention to provide a written contract.

39a
(Dkt. No. 53 ¶¶ 14-17, 19.) At this stage, Plaintiff has
alleged sufficient facts that Schaffer is personally liable in this action and the Court declines to dismiss on
these grounds.
CONCLUSION
For the reasons stated above, Defendants’ motion
to dismiss is DENIED. The Court will hold an initial
case management conference at 1:30 p.m. on March 30,
2017; the parties shall submit a joint case management conference statement with a proposed scheduled
by March 23, 2017.
The parties shall exchange initial disclosures by
March 23, 2017.
IT IS SO ORDERED.
Dated: March 20, 2017
/s/ Jacqueline Scott Corley
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

40a
Volume 2
Pages 77 – 334
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
BEFORE THE HONORABLE JACQUELINE
SCOTT CORLEY, MAGISTRATE JUDGE
JOEY LONG,

)
)
Plaintiff,
)
VS.
) No. C 16-3129 JSC
AUTHENTIC ATHLETIX )
LLC; PETER SCHAFFER; )
and DOES 1-10, inclusive, )
) San Francisco, California
Defendants.
) Tuesday, July 10, 2018
TRANSCRIPT OF PROCEEDINGS
APPEARANCES:
For Plaintiff:

LAW OFFICES OF JOHN L. BURRIS
Airport Corporate Centre
7677 Oakport Street, Suite 1120
Oakland, California 94621
BY: LATEEF H. GRAY, ATTORNEY
AT LAW
PATRICK M. BUELNA,
ATTORNEY AT LAW

For Defendants: PETER SCHAFFER, ATTORNEY
AT LAW
400 South Steele Street, Number 47
Denver, Colorado 80209

41a
For Defendant Peter Schaffer:
ROPES & GRAY LLP
Three Embarcadero Center
San Francisco, California 94111
BY: TRACI JANELLE IRVIN,
ATTORNEY AT LAW
Reported By:

Katherine Powell Sullivan,
CSR No. 5812, RMR, CRR Official
Reporter
[78] INDEX

Tuesday, July 10, 2018 – Volume 2
PAGE VOL.
Plaintiff Rests
PLAINTIFF’S WITNESSES
LONG, JOEY
(RECALLED)
Direct Examination resumed
by Mr. Buelna
Cross-Examination by
Mr. Schaffer
Redirect Examination
by Mr. Buelna
Recross-Examination
by Mr. Schaffer
WALLS, LENNY
(SWORN)
Direct Examination
by Mr. Gray
Cross-Examination
by Mr. Schaffer
Redirect Examination
by Mr. Gray

229

2

PAGE VOL.
80

2

80

2

106

2

180

2

195

2

199

2

199

2

206

2

211

2

42a
LELIE, ASHLEY
(SWORN)
Direct Examination
by Mr. Gray
Cross-Examination
by Mr. Schaffer
Redirect Examination
by Mr. Gray
Recross-Examination
by Mr. Schaffer
DEFENDANTS’ WITNESSES
SCHAFFER, PETER
(SWORN)
Direct Examination
by Ms. Irvin

213

2

213

2

218

2

224

2

225

2

PAGE VOL.
229

2

230

2

--------------------------

[79] INDEX
EXHIBITS
TRIAL EXHIBITS

IDEN

EVID

VOL.

22

88

2

23

90

2

24

92

2

25

95

2

26

96

2

27

97

2

28

101

2

37

103

2

43a
57

133

2

58

134

2

60

278

2

70

298

2

71

311

2

72

243

2

73

245

2

76

153

2

78

284

2

79

151

2

84

156

2

[80] Tuesday – July 10, 2018

8:42 a.m.

PROCEEDINGS
- - - 000 - - THE COURT: Good morning, ladies and
gentlemen. Welcome back. We’re now going to resume
with the direct of Mr. Long.
You may take the stand, Mr. Long.
JOEY LONG,
called as a witness for the Plaintiff, having been duly
sworn, testified as follows:

44a
DIRECT EXAMINATION (resumed)
BY MR. BUELNA:
Q. Good morning, Mr. Long.
A. Good morning, Patrick.
Q. So yesterday – I’m going to do a little brief recap of where we left off yesterday.
A. Okay.
Q. All right. So we’re going to start at the beginning. So you had mentioned that prior to 2011 you had
had conversations with Mr. Schaffer about Browner?
A. Yes.
Q. And prior to the announcement that he was
starting Authentic Athletix, you had a conversation
about Mr. Browner?
A. Yes.
Q. And at that time you were asking still for 40
percent;
*

*

*

[128] termination letter, you were free to converse with
Brandon Browner and I didn’t have to facilitate the
conversation anymore.
Q. So this client that you’re talking to every day,
as you said, you have this great –
A. Four or five times is what I said when he was
in Canada. Four or five times a month. He was having

45a
money trouble, so his phone was off and it would be,
you know, pretty difficult to contact him every single
day.
Q. So he signed with me when he was in Canada?
A. Yes.
Q. And so when you were talking to him four or
five times, four or five times a week?
A. Four or five times a month.
Q. And at no time during this entire period from
June until December did this client that you have this
great relationship with tell you he signed with me?
A. Well, I called and asked him. He was in the
CFL. We wasn’t going to get paid anytime soon headed
into a lockout.
Q. When did you find out when he signed with
me?
A. When I called and asked him and he said he
sent the SRA to you.
Q. And he was in Canada at the time because he
was playing?
A. He was in Canada at the time. It was 2010.
I’m the one who talked him out of signing a two-year
agreement for $50,000,
*

*

*

[271] THE COURT: Sustained. You need to
lay a foundation.

46a
MR. GRAY:

Move to strike.

THE COURT: You weren’t representing
him at the time, so we don’t know the basis for the witness’s knowledge.
MS. IRVIN:

Okay.

THE WITNESS: We’re going to actually get
into that. So then he went to Canada –
BY MS. IRVIN:
Q. Well, let me ask a question because there is an
objection.
How did you meet Mr. Browner?
A. Lenny Walls brought – and Mr. Long might
have been with him to the office in Denver.
Q. And when was that?
A. I couldn’t tell you. Probably during the 2005
season. On the off days, a lot of local players would
come by the office. My office was right next to Cherry
Creek Mall when I was at All Pro Sports, and so they
would usually go to the mall or they’d go get something
to eat and then stop in, you know, just hang out.
Other players would bring other clients all the
time. And I do remember meeting Mr. Browner one
time during the 2005 season with Mr. Walls, who’s –
and I’m very, very careful. If they come, I’m not trying
to recruit them, you know, if they’re with other agents.
But they came into the office and I think we said hi.

47a
I do remember him being on my couch, sitting down
[272] on the couch.
Q. Okay. So when you first met him in 2005 or
2006, where was he playing, if anywhere?
A. He was on injured reserve for the Broncos. He
had, I think, broke his wrist during training camp, and
the Broncos put him on injured reserve, which means
he’s still a member of the team but can’t play on the
active roster.
Q. And at that point was he signed to you?
A. No.
Q. Did you ever meet Mr. Browner again?
A. Yes, but not –
Q. And when was that?
A. 2011.
Q. And how did you meet him again in 2011?
A. Well, he – I think he – he had fired his original
agent, Ken Zuckerman. He then went with another
agent, Bruce Tolner, sometime in 2006, ’7. I don’t know.
I do remember having conversation with Mr.
Browner and Mr. Long maybe 2009. But, again, he
was in Canada. And Mr. Walls, who testified, he was in
Canada too. And when a player is in Canada, like I said
earlier, you know, it’s not a high priority situation to
get a guy from Canada because the chances of them

48a
making the NFL are very slight. And so there’s no revenue, no income unless they make the League.
And so he called me, I think, late November, early
*

*

*

